APPENDIX TABLE OF CONTENTS
Opinion of the Court of Criminal Appeals,
State of Oklahoma (May 6, 2021) ............................. 1a
District Court of Washington County,
State of Oklahoma, Findings of Fact
(October 29, 2020) ................................................... 16a
Order of the Court of Criminal Appeals, State of
Oklahoma, Remanding for Evidentiary Hearing
(August 21, 2020) .................................................... 18a

App.1a
OPINION OF THE COURT OF CRIMINAL
APPEALS, STATE OF OKLAHOMA
(MAY 6, 2021)
IN THE COURT OF CRIMINAL APPEALS
OF THE STATE OF OKLAHOMA
________________________
TERRANCE LUCAS COTTINGHAM,
Appellant,
v.
STATE OF OKLAHOMA,
Appellee.
________________________
NOT FOR PUBLICATION
Case No. F-2017-1294
Before: Dana KUEHN, Presiding Judge,
Scott ROWLAND, Vice Presiding Judge,
Gary L. LUMPKIN, Judge, David B. LEWIS, Judge,
Robert L. HUDSON, Judge.
OPINION REMANDING
WITH INSTRUCTIONS TO DISMISS
HUDSON, JUDGE:
Appellant, Terrance Lucas Cottingham, was tried
by jury and convicted of Robbery with a Dangerous
Weapon, After Former Conviction of Two or More
Felonies, in violation of 21 O.S.2011, § 801, in the

App.2a
District Court of Washington County, Case No. CF2015-350. In accordance with the jury’s recommendation, the Honorable Curtis DeLapp, District Judge,
sentenced Appellant to twenty five years imprisonment
with credit for time served. Appellant must serve 85%
of this sentence before becoming parole eligible.
Appellant now appeals from this conviction and
sentence.
In Proposition I of his brief in chief on appeal,
Appellant claims the District Court lacked jurisdiction
to prosecute him. Appellant cites 18 U.S.C. § 1153 and
McGirt v. Oklahoma, 140 S.Ct. 2452 (2020) in support of this argument. Appellant argues he is a citizen
of the Osage Nation and claims the robbery in this case
occurred within the boundaries of the Cherokee Nation
which he says is Indian Country for purposes of federal law.
On August 21, 2020, this Court remanded Appellant’s case to the District Court of Washington County
for an evidentiary hearing. The District Court was
directed to make findings of fact and conclusions of
law on two issues—(a) Appellant’s status as an
Indian; and (b) whether the crime occurred in Indian
Country. We instructed that Appellant bore the initial
burden of presenting prima facie evidence as to his
legal status as an Indian and as to the location of the
crime in Indian Country. Upon such a showing, the
burden shifts to the State to prove it has jurisdiction.
Recognizing the historical and specialized nature
of this remand for evidentiary hearing, we requested
the Attorney General and District Attorney work in
coordination to effect uniformity and completeness in
the hearing process. Our Order further provided that,
if the parties agreed as to what the evidence would

App.3a
show with regard to the questions presented, the
parties could enter into a written stipulation setting
forth those facts upon which they agree. The breadth
of the parties’ stipulation determining whether a
hearing on the issues is necessary.
As to Appellant’s status as an Indian, the District
Court was specifically ordered to determine whether
Appellant has some Indian blood and is recognized
as an Indian by a tribe or the federal government.1
To determine whether the crime occurred in Indian
Country, the District Court was directed to follow the
analysis set out in McGirt to determine (1) whether
Congress established a reservation for the Cherokee
Nation, and (2) if so, whether Congress specifically
erased those boundaries and disestablished the
reservation. In doing so, the District Court was
directed to consider any evidence the parties provided, including but not limited to treaties, statutes,
maps, and/or testimony.
An evidentiary hearing in this case was timely held
before the Honorable Russell C. Vaclaw, Associate
District Judge, on October 19, 2020. Prior to the hearing, Appellant filed a brief with the District Court
setting forth his position on the remanded issues.
The Cherokee Nation Attorney General likewise filed
an amicus brief addressing the creation and continued
existence of the Cherokee Nation reservation. The
State, by contrast, did not submit a written brief to the
District Court. At the hearing, the parties presented
the District Court with agreed-upon stipulations that
1 See Goforth v. State, 1982 OK CR 48, ¶ 6, 644 P.2d 114, 116.
See also United States v. Diaz, 679 F.3d 1183, 1187 (10th Cir. 2012);
United States v. Prentiss, 273 F.3d 1277, 1280-81 (10th Cir. 2001).

App.4a
partially answered the questions presented to the
court. Counsel for the Cherokee Nation also appeared
at the hearing as amicus and presented argument.
As to Appellant’s status as an Indian, the parties
stipulated:
1.

Appellant is thirty-five two-hundred-fiftysixths (35/256) degree of Indian blood of the
Osage Tribe.

2.

Appellant is a member of the Osage Nation
and was such on October 6, 2015, the time
of the charged offense.

3.

The Osage Nation is an Indian Tribal Entity
recognized by the federal government.

No additional evidence was presented relating to this
issue.
As to the location of the crime, the parties stipulated:
4.

The charged crime occurred within the geographic area set out in the Treaty with the
Cherokee, December 29, 1835, 7 Stat. 478, as
modified under the Treaty of July 19, 1866,
14 Stat. 799, and as modified under the 1891
agreement ratified by Act of March 3, 1893,
27 Stat. 612.

The Cherokee Nation, at Appellant’s request introduced into evidence a packet of exhibits containing
the treaties and federal legislation referenced in the
stipulation along with a map of the Cherokee Nation
showing the location of the robbery. The State presented
no additional evidence relating to this issue.

App.5a
Appellant primarily stood on the briefs that were
submitted by defense counsel and the Cherokee Nation
prior to the hearing in arguing the jurisdictional
issue. Defense counsel argued that, based on the stipulated facts, Appellant was an Indian for purposes of
federal law and that the robbery in this case occurred
in Indian Country. Appellant adopted the arguments
presented by the Cherokee Nation in its amicus that
the Cherokee Nation reservation was created by treaty
with the federal government and continued to exist
over time because Congress had never disestablished
it. At the hearing, counsel for the Cherokee Nation
presented extended argument summarizing the Tribe’s
position in support of the continued existence of the
Cherokee Nation reservation and referenced pertinent
treaties and federal legislation resulting in the present
territorial boundaries for the Nation which includes
all of Washington County. The Tribe pointed out the
total absence of legislation from Congress disestablishing the Cherokee Nation reservation and urged
that the reservation still existed today.
The State was represented at the hearing by the
elected District Attorney along with counsel from the
Oklahoma Attorney General’s Office. The State took
no position at the hearing on the two legal questions
before the District Court but merely stipulated to the
underlying facts. The record shows the State neither
advocated it had jurisdictional authority to prosecute
Appellant nor conceded its lack thereof. Instead, the
State acknowledged the facts agreed to by stipulation
and asserted that it was leaving it to the Court to
determine whether, as a matter of law, Appellant was

App.6a
an Indian and whether the crime occurred in Indian
Country.2
In its written findings of fact and conclusions of
law filed after the hearing, the District Court accepted
and found the facts as stipulated by the parties. The
court concluded: (1) Appellant is a member of the
Cherokee Nation [sic]”; (2) the robbery in this case
occurred within the historical and territorial boundaries
of the Cherokee Nation’s reservation; (3) Appellant
and the Cherokee Nation’s counsel argued that Congress had not disestablished the reservation for the
Cherokee Nation; (4) the State “did not present any
evidence or argument as to whether Congress disestablished the Cherokee Reservation[;]”; and (5) “The Court,
having heard no other evidence, must find that the
Cherokee Reservation was not disestablished.”
Both Appellant and the State have filed supplemental briefs with this Court post-remand. Appellant
urges that the District Court’s findings should be
adopted by this Court in total. Appellant tells us the
record supports the District Court’s conclusions concerning both his Indian status and the occurrence of
the robbery in this case on the Cherokee Nation reservation. Appellant further argues that the record shows
Congress established a reservation for the Cherokee
Nation, the State cannot and did not at the hearing
point to any language in federal legislation or treaties
disestablishing the Cherokee Reservation and therefore
2 Towards the end of the hearing, the elected District Attorney
expressed his view that the continuing existence of a reservation for the Cherokee Nation was inconsistent with the fact of
Oklahoma statehood. This argument, however, was not a
definitive assertion by the State that it had jurisdiction to
prosecute Appellant in the present case.

App.7a
the robbery charged in this case was committed in
Indian Country for purposes of federal law. Based
on these findings, Appellant urges dismissal of the
present case for lack of jurisdiction.
In its response brief, the State acknowledges the
District Court accepted the parties’ stipulations as discussed above. The State also acknowledges the District
Court’s findings establishing both that Appellant was
an Indian and that the crimes occurred in Indian
Country. The State reiterates, however, that it “takes
no position as to the existence, or absence, of a
Cherokee Nation Reservation.” State’s Supp. Br. at 5
n.4. Should this Court find Appellant is entitled to
relief based on the District Court’s findings, the State
asks this Court to stay any order reversing Appellant’s
conviction for thirty days to allow federal authorities
time to secure custody of Appellant. Cf. 22 0.5.2011,
§ 846.
After thorough consideration of this proposition
and the entire record before us on appeal including
the original record, transcripts and the briefs of the
parties, we find that under the law and evidence
relief is warranted. The State in effect stipulated to
Appellant’s legal status as an Indian. However, the
State took no position and presented no argument or
evidence that the Cherokee Nation reservation had
been disestablished and thus the crime did not occur
in Indian Country. The State’s tactic of passivity has
created a legal void in this Court’s ability to adjudicate
properly the facts underlying Appellant’s argument.
This Court is left with only the trial court’s conclusions
of law to review for an abuse of discretion. We find
no such abuse. See State v. Delso, 2013 OK CR 5, ¶ 5,
298 P.3d 1192, 1194 (defining “an abuse of discretion”).

App.8a
Based upon the record before us, the District
Court’s Order is supported by the evidence presented
at the evidentiary hearing. We therefore find Appellant
has met his burden of establishing his status as an
Indian, having 35/256 degree of Indian blood and being
a member of the Osage Nation tribe on the date of the
robbery in this case. We also find the District Court
appropriately applied McGirt to determine that Congress established a Cherokee Nation reservation and
that no evidence was presented showing that Congress
explicitly erased or disestablished the boundaries of
the Cherokee Nation or that the State of Oklahoma
had jurisdiction in this matter.
Pursuant to McGirt, we find the State of Oklahoma
did not have jurisdiction to prosecute Appellant in this
matter.3 The Judgment and Sentence in this case is
hereby reversed and the case remanded to the District Court of Washington County with instructions
to dismiss the case.4
DECISION
The Judgment and Sentence of the District
Court is REVERSED AND REMANDED WITH
INSTRUCTIONS TO DISMISS. The MANDATE is
3 I maintain my previously expressed views on the significance
of McGirt, its far-reaching impact on the criminal justice
system in Oklahoma and the need for a practical solution by
Congress. See Bosse v. State, 2021 OK CR 3, ___ P.3d ___
(Hudson, J., Concur in Results); Hogner v. State, 2021 OK CR 4,
___ P.3d ___ (Hudson, J., Specially Concurs); and Krafft v.
State, No. F-2018-340 (Okl. Cr., Feb. 25, 2021) (Hudson, J.,
Specially Concurs) (unpublished).
4 This resolution renders moot the remaining eight propositions
of error raised in Appellant’s brief.

App.9a
not to be issued until twenty (20) days from the
delivery and filing of this decision.5
AN APPEAL FROM THE DISTRICT COURT
OF WASHINGTON COUNTY THE
HONORABLE RUSSELL C. VACLAW
ASSOCIATE DISTRICT JUDGE
APPEARANCES AT TRIAL
Garrett Marshall
Chad Johnson
Okla. Indigent Defense System
P.O. Box 926
Norman, OK 73070
Counsel for Defendant
Kevin Buchanan
District Attorney
Washington County
420 S. Johnstone, Room 222
Bartlesville, OK 74003
Counsel for the State
Mike Hunter
Okla. Attorney General
Julie Pitman
Ashley Willis
Asst. Attorneys General
313 N.E. 21st Street
Oklahoma City, OK 73105
Counsel for the State
Sara Hill
5 By withholding the issuance of the mandate for twenty days,
the State’s request for time to allow federal authorities to secure
custody of Appellant is rendered moot.

App.10a
Cherokee Nation
Attorney General’s Office
P.O. Box 1533
Tahlequah, OK 74465
Counsel for Amicus
Cherokee Nation
APPEARANCES ON APPEAL
Lisbeth L. McCarty
Chad Johnson
Okla. Indigent Defense System
P.O. Box 926
Norman, OK 73070
Counsel for Appellant
Mike Hunter
Attorney General
Tessa L. Henry
Asst. Attorney General
313 N.E. 21st Street
Oklahoma City, OK 73105
Counsel for Appellee
Opinion by: Hudson, J.
Kuehn, P.J.: Concur in Results
Rowland, V.P.J.: Concur in Results
Lumpkin, J.: Concur in Results
Lewis, J.: Concur in Results

App.11a
KUEHN, PRESIDING JUDGE,
CONCURRING IN RESULT:
I agree with the Majority that the State of
Oklahoma had no jurisdiction to try Appellant, and
his case must be dismissed. This Court recently found
that the Cherokee Reservation was not disestablished, and is Indian Country. Spears v. State, 2021
OK CR 7, ¶¶ 15-16. Because the issue of reservation
status has already been decided, I find the Majority’s
discussion of it is superfluous dicta. I further note
that the Majority’s inclusion of a blood quantum is
unnecessary. This Court, like the Tenth Circuit,
requires only a finding of some Indian blood to determine Indian status, and has explicitly rejected a specific blood quantum requirement. Bosse v. State, 2021
OK CR 3, ¶ 19.
I also disagree, as I have before, with the Majority’s complaint that the State’s position below left a
“void” in the record. Hogner v. State, 2021 OK CR 4,
¶ 3 (Kuehn, P.J., concurring in result). Petitioner provided the trial court with law and evidence relevant to
the jurisdictional issue. The trial court’s findings and
conclusions clearly set forth the details of the material
it used to make its decisions. Often, in a criminal
trial, the defendant does not offer evidence to counter
the evidence of guilt presented by the State. And yet,
this Court routinely finds the evidence is sufficient
for our review, without complaining that the defendant’s choice leaves a void in the record. The same is
true here.

App.12a
LUMPKIN, JUDGE, CONCUR IN RESULTS:
Bound by my oath and the Federal-State relationships dictated by the U.S. Constitution, I must at
a minimum concur in the results of this opinion.
While our nation’s judicial structure requires me to
apply the majority opinion in the 5-4 decision of the
U.S. Supreme Court in McGirt v. Oklahoma, ___ U.S.
___, 140 S.Ct. 2452 (2020), I do so reluctantly. Upon
the first reading of the majority opinion in McGirt, I
initially formed the belief that it was a result in
search of an opinion to support it. Then upon reading
the dissents by Chief Justice Roberts and Justice
Thomas, I was forced to conclude the Majority had
totally failed to follow the Court’s own precedents, but
had cherry picked statutes and treaties, without giving
historical context to them. The Majority then proceeded to do what an average citizen who had been
fully informed of the law and facts as set out in the
dissents would view as an exercise of raw judicial
power to reach a decision which contravened not only
the history leading to the disestablishment of the
Indian reservations in Oklahoma, but also willfully
disregarded and failed to apply the Court’s own precedents to the issue at hand.
My quandary is one of ethics and morality. One
of the first things I was taught when I began my
service in the Marine Corps was that I had a duty to
follow lawful orders, and that same duty required me
to resist unlawful orders. Chief Justice Roberts’s scholarly and judicially penned dissent, actually following
the Court’s precedents and required analysis, vividly
reveals the failure of the majority opinion to follow
the rule of law and apply over a century of precedent

App.13a
and history, and to accept the fact that no Indian
reservations remain in the State of Oklahoma.1 The
result seems to be some form of “social justice” created
out of whole cloth rather than a continuation of the
solid precedents the Court has established over the
last 100 years or more.
The question I see presented is should I blindly
follow and apply the majority opinion or do I join with
Chief Justice Roberts and the dissenters in McGirt
1 Senator Elmer Thomas, D-Oklahoma, was a member of the
Senate Committee on Indian Affairs. After hearing the Commissioner’s speech regarding the Indian Reorganization Act
(IRA) in 1934, Senator Thomas opined as follows:
I can hardly see where it (the IRA) could operate in a
State like mine where the Indians are all scattered
out among the whites and they have no reservation,
and they could not get them into a community
without you would go and buy land and put them on
it. Then they would be surrounded very likely with
thickly populated white sections with whom they would
trade and associate. I just cannot get through my
mind how this bill can possibly be made to operate in
a State of thickly-settled population. (emphasis added).
John Collier, Commissioner of Indian Affairs, Memorandum of
Explanation (regarding S. 2755), p. 145, hearing before the United
States Senate Committee on Indian Affairs, February 27, 1934.
Senator Morris Sheppard, D-Texas, also on the Senate Committee
on Indian Affairs, stated in response to the Commissioner’s
speech that in Oklahoma, he did not think “we could look forward
to building up huge reservations such as we have granted to the
Indians in the past.” Id. at 157. In 1940, in the Foreword to Felix
S. Cohen, Handbook of Federal Indian Law (1942), Secretary of
the Interior Harold Ickes wrote in support of the IRA, “[t]he
continued application of the allotment laws, under which Indian
wards have lost more than two-thirds of their reservation lands,
while the costs of Federal administration of these lands have
steadily mounted, must be terminated.” (emphasis added).

App.14a
and recognize “the emperor has no clothes” as to the
adherence to following the rule of law in the application of the McGirt decision?
My oath and adherence to the Federal-State relationship under the U. S. Constitution mandate that I
fulfill my duties and apply the edict of the majority
opinion in McGirt. However, I am not required to do
so blindly and without noting the flaws of the opinion
as set out in the dissents. Chief Justice Roberts and
Justice Thomas eloquently show the Majority’s mischaracterization of Congress’s actions and history with
the Indian reservations. Their dissents further demonstrate that at the time of Oklahoma Statehood in 1907,
all parties accepted the fact that Indian reservations
in the state had been disestablished and no longer
existed. I take this position to adhere to my oath as a
judge and lawyer without any disrespect to our Federal-State structure. I simply believe that when reasonable minds differ they must both be reviewing the
totality of the law and facts.

App.15a
LEWIS, JUDGE, CONCUR IN RESULTS:
Based on my special writings in Bosse v. State,
2021 OK CR 3, ___ P.3d ___ and Hogner v. State,
2021 OK CR 4, ___ P.3d ___, I concur in results in
the decision to dismiss this case for the lack of state
jurisdiction.

App.16a
DISTRICT COURT OF WASHINGTON
COUNTY, STATE OF OKLAHOMA,
FINDINGS OF FACT
(OCTOBER 29, 2020)
IN THE DISTRICT COURT OF WASHINGTON
COUNTY, STATE OF OKLAHOMA
________________________
THE STATE OF OKLAHOMA,
Plaintiff,
v.
TERRANCE COTTINGHAM,
Defendant.
________________________
Case No. CF-15-350
Before: Russell VACLAW, District Court Judge.
FINDINGS OF FACT
NOW on this 29th day of October, 2020, the Court,
upon remand from the Oklahoma Court of Criminal
Appeals, on a request for the trial Court to enter
certain findings of fact, hereby FINDS AND ORDERS
as follows:
1. The Defendant, Terrance Cottingham is a member of the Cherokee Nation.
2. The Defendant was convicted of crimes which
occurred in Washington County, Oklahoma.

App.17a
3. The crimes committed in Washington County,
Oklahoma were also committed within the historical
and territorial borders of the Cherokee Reservation.
4. Defendant argued, as well as the Cherokee
Nation legal representative, Sara Hill, that Congress
has not disestablished the Cherokee Reservation.
5. The State of Oklahoma, by and through the
Oklahoma Attorney General’s Office, did not present
any evidence or argument as to whether Congress
disestablished the Cherokee Reservation.
6. The Court, having heard no other evidence,
must find that the Cherokee Reservation was not
disestablished.
It is so ordered.
/s/ Russell Vaclaw
District Court Judge

App.18a
ORDER OF THE COURT OF CRIMINAL
APPEALS, STATE OF OKLAHOMA,
REMANDING FOR EVIDENTIARY HEARING
(AUGUST 21, 2020)
IN THE COURT OF CRIMINAL APPEALS
OF THE STATE OF OKLAHOMA
________________________
TERRANCE LUCAS COTTINGHAM,
Appellant,
v.
STATE OF OKLAHOMA,
Appellee.
________________________
NOT FOR PUBLICATION
F-2017-1294
Before: David B. LEWIS, Presiding Judge,
Dana KUEHN, Vice Presiding Judge,
Gary L. LUMPKIN, Judge, Scott ROWLAND, Judge,
Robert L. HUDSON, Judge.
ORDER REMANDING FOR
EVIDENTIARY HEARING
Appellant, Terrance Lucas Cottingham, was tried
by jury and convicted of Robbery with a Dangerous
Weapon, After Former Conviction of Two or More
Felonies, in violation of 21 O.S.2011, § 801, in the
District Court of Washington County, Case No. CF-

App.19a
2015-350. In accordance with the jury’s recommendation, the Honorable Curtis DeLapp, District Judge,
sentenced Appellant to twenty five years imprisonment
with credit for time served. Appellant must serve 85%
of this sentence before becoming parole eligible. Appellant now appeals from this conviction and sentence.
In Proposition I of his brief in chief, Cottingham
claims the District Court lacked jurisdiction to try
him. Appellant argues that he is a citizen of the Osage
Nation and has submitted documentation suggesting
he is also a member of the Seneca-Cayuga Nation.
Further, Appellant contends the crime occurred within
the boundaries of the Cherokee Nation and/or the
Delaware Nation.
Appellant’s claim raises two separate questions:
(a) his Indian status and (b) whether the crime
occurred in Indian Country. These issues require factfinding. We therefore REMAND this case to the District Court of Washington County, for an evidentiary
hearing to be held within sixty (60) days from the
date of this Order.
Recognizing the historical and specialized nature
of this remand for evidentiary hearing, we request
the Attorney General and District Attorney work in
coordination to effect uniformity and completeness in
the hearing process. Upon Appellant’s presentation
of prima facie evidence as to the Appellant’s legal
status as an Indian and as to the location of the
crime in Indian Country, the burden shifts to the
State to prove it has subject matter jurisdiction.
The hearing shall be transcribed, and the court
reporter shall file an original and two (2) certified
copies of the transcript within twenty (20) days after

App.20a
the hearing is completed. The District Court shall then
make written findings of fact and conclusions of law,
to be submitted to this Court within twenty (20) days
after the filing of the transcripts in the District Court.
The District Court shall address only the following
issues.
First, the Appellant’s status as an Indian. The
District Court must determine whether (1) Appellant
has some Indian blood, and (2) is recognized as an
Indian by a tribe or the federal government.1
Second, whether the crime occurred in Indian
Country. The District Court is directed to follow the
analysis set out in McGirt, determining (1) whether
Congress established a reservation for the Cherokee
Nation and/or the Delaware Nation, and (2) if so,
whether Congress specifically erased those boundaries
and disestablished the reservation(s). In making this
determination the District Court should consider any
evidence the parties provide, including but not limited
to treaties, statutes, maps, and/or testimony.
The District Court Clerk shall transmit the record
of the evidentiary hearing, the District Court’s findings
of fact and conclusions of law, and any other materials
made a part of the record, to the Clerk of this Court,
and counsel for Appellant, within five (5) days after
the District Court has filed its findings of fact and
conclusions of law. Upon receipt thereof, the Clerk of
this Court shall promptly deliver a copy of that
record to the Attorney General. A supplemental
brief, addressing only those issues pertinent to the
1 See Goforth v. State, 1982 OK CR 48, ¶ 6, 644 P.2d 114, 116.
See also United States v. Diaz, 679 F.3d 1183, 1187 (10th Cir. 2012);
United States v. Prentiss, 273 F.3d 1277, 1280-81 (10th Cir. 2001).

App.21a
evidentiary hearing and limited to twenty (20) pages
in length, may be filed by either party within twenty
(20) days after the District Court’s written findings
of fact and conclusions of law are filed in this Court.
Provided however, in the event the parties agree
as to what the evidence will show with regard to the
questions presented, they may enter into a written
stipulation setting forth those facts upon which they
agree and which answer the questions presented and
provide the stipulation to the District Court. In this
event, no hearing on the questions presented is necessary. Transmission of the record regarding the matter,
the District Court’s findings of fact and conclusions
of law and supplemental briefing shall occur as set
forth above.
IT IS FURTHER ORDERED that the Clerk of
this Court shall transmit copies of the following, with
this Order, to the District Court of Washington County:
Appellant’s Brief in Chief, filed August 29, 2018; and
Appellee’s Response Brief, filed December 27, 2018.
The present order renders MOOT any request made
to date for supplemental briefing by either party in
this case as well as any request to file an amicus
brief.
IT IS SO ORDERED.
WITNESS OUR HANDS AND THE SEAL OF
THIS COURT this 21st day of August, 2020.

App.22a
/s/ David B. Lewis
Presiding Judge
/s/ Dana Kuehn
Vice Presiding Judge
/s/ Gary L. Lumpkin
Judge
/s/ Robert L. Hudson
Judge
/s/ Scott Rowland
Judge

ATTEST:
/s/ John D. Hadden
Clerk

